Bellco Credit Union
Account Disclosure
Visa® Platinum Credit Card
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

0% Introductory APR for the first six months on purchases. After that, the Standard APR
will range from 9.50% to 21% based on creditworthiness.

APR for Balance Transfers

This APR will vary with the market based on the Prime Rate.
1.99% Introductory APR for the first 12 months on any balance transfers that occur within
the first 90 days of account opening. After that, the Standard APR will be 21%.

APR for Cash Advances

21%

Penalty APR

None

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month. We
will begin charging interest on cash advances or balance transfers on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit Card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
Transaction Fees
• Balance Transfer
•

Cash Advance

None

$0 fee on transfers made within 90 days of account opening, After that, either $10 or 4% of
the amount of each balance transfer, whichever is greater (maximum fee: $75)
Either $10 or 4% of the amount of each cash advance, whichever is greater (maximum fee
$75)
Up to 1% of each transaction in U.S. dollars.

• Foreign Transaction
Penalty Fees
• Late Payment
The lesser of minimum payment due or $25.
• Returned Payment
$10.
• Over the Limit Fee
None
How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See

your account agreement for more details.
Expedite Delivery of Card: A fee of $45 may be charged for expedited delivery of a Card at the time of request.
Loss of Introductory APR: We may end your Introductory APR and apply the Standard APR for purchases or balance transfers
if you make a late payment.
Periodic Rates: After any Introductory Rate period, or if an Introductory rate does not apply to your Account, the periodic rate
for purchases will range from 0.0260% per day to 0.0576% per day which corresponds to an ANNUAL PERCENTAGE RATE
ranging from 9.50% to 21%. The periodic rate for cash advances is 0.0576% per day with a corresponding annual percentage
rate of 21%. Balance transfers will be considered a cash advance and will accrue interest like a cash advance. Balance transfers
will be referred to as cash advance for purposes of this disclosure.
Effective Date: This disclosure is effective as of April 1, 2020 and is subject to change after date listed.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.

